NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
EUGENE DAVIS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
HEIDI R. FREESE, ESQ.
Federal Public Defender

FREDERICK W. ULRICH, ESQ.*
Assistant Federal Public Defender

QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender

TAMMY L. TAYLOR, ESQ.
Staff Attorney

Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
Counsel for Petitioner
November 19, 2020

*Counsel of Record

In accordance with Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Eugene Davis, requests leave to file the enclosed Petition for
Writ of Certiorari to the United States Court of Appeals for the Third Circuit
without prepayment of costs and to proceed in forma pauperis based upon an
appointment under the Criminal Justice Act, 18 U.S.C. § 3006A(d)(6). Pursuant to
the Criminal Justice Act, the Federal Public Defender’s Office was appointed to
represent the Petitioner in the United States District Court for the Middle District
of Pennsylvania and in the United States Court of Appeals for the Third Circuit.

Respectfully submitted,
HEIDI R. FREESE
Federal Public Defender

/s/ Frederick W. Ulrich
FREDERICK W. ULRICH
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Attorney ID# PA44855
Counsel for Petitioner
Date: November 19, 2020

